     ~
         'L,
      NATIONAL 

                  ~~,~
                 .:g7+--"


     ARCHIVES 

      OFFICE of
 INSPECTOR GENERAL

         March 18,2011                                               OIG Audit Report No. 11-11



         To Cliff Jennings, Inspector General·
         Appalachian Regional Commission


         We have reviewed the system of quality control for the Appalachian Regional Commission
         Office of Inspector General (ARC OIG) audit organization in effect for the two years ended
         September 30,2010. A system of quality control encompasses ARC OIG's organizational
         structure and the policies adopted and procedures established to provide it with reasonable
         assurance of conforming with Government Auditing Standards. The elements of quality control
         are described in Government Auditing Standards. ARC OIG is responsible for designing a
         system of quality control and complying with it to provide ARC OIG with reasonable assurance
         of performing and reporting in conformity with applicable professional standards in all material
         respects. Our responsibility is to express an opinion on the design of the system of quality
         control and ARC OIG's compliance therewith based on our review.

         Our review was conducted in accordance with Government Auditing Standards and guidelines
         established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE).
         During our review, we interviewed ARC OIG personnel and obtained an understanding of the
         nature of the ARC OIG audit organization, and the design ofthe ARC OIG's system of quality
         control sufficient to assess the risks implicit in its audit function. Based on our assessments, we
         selected administrative files to test for conformity with professional standards and compliance
         with the ARC OIG's system of quality control. Except as discussed below, the engagements
         selected represent a reasonable cross-section of the ARC OIG's audit organization, with
         emphasis on higher-risk engagements. Prior to concluding the review, we reassessed the
         adequacy ofthe scope of the peer review procedures and met with ARC OIG management to
         discuss the results of our review. We believe that the procedures we performed provide a
         reasonable basis for our opinion.

         In performing our review, we obtained an understanding of the system of quality control for the
         ARC OIG's audit function. In addition, we tested compliance with the ARC OIG's quality
         control policies and procedures to the extent we considered appropriate. Our review was based



 NATIONAL ARCHIVES        and 

 RECORDS ADMINISTRATION 


8601 ADELPHI ROAD, ROOM 1300 

COLLEGE PARK. MD 20740-6001 

       www.archives.gov
on selected tests; therefore, it would not necessarily detect all weaknesses in the system of
quality control or all instances of noncompliance.

There are inherent limitations in the effectiveness of any system of quality control and therefore
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation of a system of quality control to future periods is subject to the risk that the
system of quality control may become inadequate because of changes in conditions, or because
the degree of compliance with the policies or procedures may deteriorate.

ARC OIG notified us that they did not perform any audits during the period under review but
rather only inspections. It is ARC OIG's current policy not to perform audits or any other work
under generally accepted government auditing standards (GAGAS) because of its staffsize.
ARC management and the ARC OIG contract with independent public accounting firms (IPAs)
to conduct audits, attestation engagements, and certain other GAGAS engagements. As a result,
we were unable to test compliance with certain GAGAS requirements in accordance with the
peer review gUidelines established by the CIGIE. Enclosure 1 to this report identifies the offices
of the ARC OIG that we visited and the engagements that we reviewed.

In our opinion, except for the scope limitation cited above, the system of quality control for the
audit organization of ARC OIG in effect for the two years ended September 30,2010, has been
suitably designed to provide ARC OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Therefore, based on
our work, ARC OIG has received a peer review rating of pass with a scope limitation.




Inspector General




Enclosures
.. 





                              SCOPE AND METHODOLOGY (Enclosure 1)


       Scope and Methodology

       We tested compliance with the ARC OIG audit organization's system of quality control to
       the extent we considered appropriate. ARC OIG did not perform audit or attestation
       engagements but rather only inspections. It is ARC OIG's current policy not to perform
       audit or any other work under GAGAS. ARC management and the OIG contract with
       independent public accounting firms (lP As) to conduct audits, attestation engagements,
       and certain other GAGAS engagements. Therefore we did not test compliance with
       certain ARC ~IG's system of quality controls.·

       We reviewed the ARC ~IG's monitoring of engagements performed by IPAs where the
       IPA served as the principal auditor during the period October 1, 2008, through September
       30,2010. During the period, ARC management contracted for the audit of its agency's
       Fiscal Year 2009 financial statements and ARC OIG monitored the IPA's work. ARC
       OIG also contracted for certain other engagements that were to be performed in
       accordance with Government Auditing Standards.

       We visited the Washington, DC office of ARC OIG.


       Reviewed Engagements Performed by ARC OIG

       ARC OIG does not perform audits or attestation engagements. This scope limitation
       prevented us from testing compliance with certain ARC ~IG's system of quality controls.


       Reviewed Monitoring Files of ARC OIG for Contracted Engagements

       Report No.    Report Date            Report Title
       10~05         June 8, 2010           Audit Report on ARCs Financial Statements
                                                  for Fiscal Year 2008 and 2009

       09-04         September 24, 2009     ARC Internal Control Performance Audit
